August 14, 2009

THOMAS G. DAY
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

DELORES J. KILLETTE
VICE PRESIDENT, CONSUMER ADVOCATE

SUBJECT: Audit Report – Service Performance Measurement System – Delivery
         Confirmation (Report Number CRR-AR-09-005)

This report presents the results of our audit of the Postal Service’s Service Performance
Measurement System – Delivery Confirmation™ (Project Number 09RG005CRR000).
Our objective was to assess the reliability of Delivery Confirmation data used to
calculate the service performance measures for retail parcels. In addition, we assessed
whether the Postal Service has a strategic plan using service performance
measurement results. This self-initiated audit addresses operational, customer service,
and strategic risk factors. See Appendix A for additional information about this audit.

Conclusion

The Delivery Confirmation data used to calculate the service performance measures for
retail parcels is reliable. Certain parcels are excluded from service performance
measurement calculations based on established business rules that we found to be
reasonable. However, because retail parcels are a small percentage of mail volume,
these results may not reflect the broader mail classes.

The Postal Service has a strategic plan for using service performance results, which
includes incorporating service performance results into the National Performance
Assessment (NPA) program. However, the NPA program does not include service
measurements for Package Services parcels. This plan also significantly depends on
implementing and using the Intelligent Mail Barcode (IMB). With broader adoption of
the IMB, additional audit work will be necessary to evaluate its effectiveness in
accurately measuring service performance.

Service Performance Measurements are Reliable for Parcels

The Postal Service has adequate controls over reporting of service performance
measurement for retail First-Class® and Package Services parcels. We tested the
migration of Delivery Confirmation data from original entry sources to reporting sources
and determined the data is reliable.
Service Performance Measurement Systems – Delivery Confirmation              CRR-AR-09-005



The Postal Service excluded approximately 11 percent of the retail First-Class Mail and
Package Services parcels from service performance measurements. The Postal
Service established seven business rules to identify retail parcels that should be
excluded from service performance measurement calculations, which we found to be a
reasonable approach. For example, mailpieces are not included in the service
performance calculations when the Delivery Confirmation start-the-clock and stop-the-
clock scanning events are incomplete.

Retail parcels comprise approximately 0.4 percent of First-Class Mail volume and 14.5
percent of Package Services annual mail volume; therefore, the results of this audit may
not reflect the accuracy of the service performance of the broader mail classes.

See Appendix B for our detailed analysis of this topic.

Strategic Planning

The Postal Service has a strategic plan for using service performance results. The plan
includes incorporating service performance metrics into the NPA process

In June 2008, the Postal Service submitted to Congress a plan to establish service
performance standards.1 The plan outlines Postal Service strategies to establish
service performance standards; implement systems to measure service performance;
addresses the establishment of performance goals; and describes changes to
processing, transportation, and retail networks necessary to meet service performance
goals. The plan significantly depends on implementing and using the IMB; therefore,
additional audit work will be necessary to evaluate the success of IMB implementation
and use to accurately measure service performance.

A number of service performance indicator metrics are part of the NPA program, which
collects performance-related metrics from source systems across the Postal Service.
These metrics are translated into balanced scorecards used to monitor performance at
both the corporate and unit levels.

The service performance results for some Package Services parcels are not included as
an NPA indicator. As the Postal Service refines the service performance measurement
system for Package Services parcels, those service performance metrics should also be
included in the NPA process. According to management, the Postal Service is
committed to incorporating new service performance measures, as they are defined,
into the NPA process. We are not making any recommendations in this report and
management chose not to respond formally to this report.




1
    Postal Accountability and Enhancement Act 302 Network Plan, June 2008.



                                                         2
Service Performance Measurement Systems – Delivery Confirmation         CRR-AR-09-005



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, Director, Cost,
Revenue and Rates, or me at (703) 248-2100.

   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems


cc: Bill Harris




                                                 3
Service Performance Measurement Systems – Delivery Confirmation                             CRR-AR-09-005



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Accountability and Enhancement Act (the Act) required the Postal Service to
establish service standards for market-dominant products, develop a system of
objective external performance measurements for each market-dominant product, and
develop and submit to Congress a plan for meeting the service performance standards.

In November 2007, the Postal Service provided the Postal Regulatory Commission
(PRC) a draft service performance measurement plan that proposed to measure service
performance using a mix of external and internal service performance measurement
systems. In November 2008, the PRC approved the Postal Service plan to use internal
Delivery Confirmation data to measure the service performance of parcel-shaped First-
Class Mail, Standard Mail, and Package Services mail.

Delivery Confirmation provides the date and time an article was delivered and, if
delivery was attempted but not successful, the date and time of the attempted delivery.
For market-dominant products, Delivery Confirmation service can be purchased for
retail and presort First-Class Mail parcels, Standard Mail parcels, and retail and presort
Package Services parcels. For retail parcels, the Delivery Confirmation scan at the
retail counter is the start-the-clock event. For presort parcels, a documented arrival
time at a Postal Service acceptance facility along with mailer provided electronic
documentation is used to determine the start-the-clock time.

The Postal Service scans2 or manually enters and transmits Delivery Confirmation data
to the Product Tracking System (PTS), a national database that records delivery
information for products and services. From the PTS, Delivery Confirmation data is
downloaded to the Enterprise Data Warehouse (EDW). The EDW is used as a single
repository for analyzing and reporting Postal Service data.

Customer Knowledge Management, a division of the Consumer Advocate Office,
extracts service performance scores from the EDW system. The service performance
results for First-Class Mail parcels are combined with the single-piece First-Class Mail
letter and flat scores which are determined by the External First-Class Measurement
(EXFC)3 system. The service performance results for Standard Mail parcels are
included with the Standard Mail aggregate performance. The aggregate First-Class
Mail and Standard Mail service performance results, along with the Package Services
parcels results, are reported quarterly to the PRC and published on the Postal Service’s
external website.



2
 Scanning includes electronic scans or keyed entries into the Intelligent Mail® Device scanner.
3
 EXFC is an end-to-end service performance system that measures First-Class Mail performance from the time mail
enters collection until it is delivered to a household, small business, or Post Office box.



                                                       4
Service Performance Measurement Systems – Delivery Confirmation            CRR-AR-09-005



The Postal Service NPA program is a system that collects performance-related metrics,
such as on-time delivery, from source systems across the Postal Service. The metrics
are translated into balanced scorecards that are used to monitor performance at both
the organization and individual unit level. Under the NPA, a number of service
performance indicators are tracked. They include First-Class Mail service performance,
Express Mail® and Priority Mail® service performance, and retail Package Services
parcels that are processed at a Network Distribution Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine the reliability of Delivery Confirmation data used to
calculate the service performance measurement of retail parcels and whether the Postal
Service has a strategic plan for using service performance measurement results.

To assess the reliability of Delivery Confirmation data, we obtained first quarter,
FY 2009 Delivery Confirmation records from the EDW System. We analyzed the
records to determine whether:

    •   Delivery Confirmation records were properly excluded. We examined the basis
        for exclusion and verified the data was excluded in accordance with established
        business rules.
    •   Delivery Confirmation stop-the-clock scans were completed before the parcel
        was delivered. We compared stop-the-clock scan time with normal delivery
        hours.
    •   Manually entered Delivery Confirmation records were reliable. We calculated
        service performance results for manually-entered records and compared the
        service performance results to scanned records.
    •   Service performance results were representative of active 3-digit ZIP Codes™.
        We compared the destinating 3-digit level ZIP Codes against the roster of active
        3-digit ZIP Codes.

To perform this audit, we relied on computer-processed data obtained from the EDW
and the PTS systems. While we did not assess the reliability of those systems, we
conducted tests to ensure the data we obtained was reliable for the purposes of our
audit.

To determine whether the Postal Service has a strategic plan for using service
performance measurement results, we:

   •    Reviewed the Postal Service 5-Year Vision 2013.
   •    Reviewed the Postal Accountability and Enhancement Act 302 Network Plan,
        June 2008.
   •    Reviewed service and field operations performance measurements.
   •    Interviewed Postal Service management.




                                                 5
Service Performance Measurement Systems – Delivery Confirmation                CRR-AR-09-005



We conducted this performance audit from November 2008 through August 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Management reviewed a
discussion draft of this report. We incorporated their suggested changes into this final
report.

PRIOR AUDIT COVERAGE



                   Report            Final Report         Monetary
 Report Title      Number                Date              Impact             Report Results
Government       GAO-08-996         September 2008          None     Implementation of the postal
Accountability                                                       reform law for measuring delivery
Office (GAO),                                                        performance will give the Postal
New Delivery                                                         Service opportunities to
Performance                                                          incorporate new indicators into its
Measures                                                             pay for performance (PFP)
Could                                                                program. The GAO
Enhance                                                              recommended the Postal Service
Managers’                                                            incorporate new delivery
Pay for                                                              performance indicators into its
Performance                                                          PFP program once the
Program                                                              measurement systems are
                                                                     implemented. Management
                                                                     agreed with the recommendation
                                                                     and stated that it is committed to
                                                                     incorporating new delivery
                                                                     performance measures into its
                                                                     PFP program.




                                                 6
Service Performance Measurement Systems – Delivery Confirmation             CRR-AR-09-005




Business         EN-AR-09-002        March 12, 2009      None     The Postal Service complied with
Rules for                                                         the statutory requirements in the
Modern                                                            Act for developing and
Service                                                           implementing service standards
Standards                                                         for market-dominant mail
                                                                  products. However, the report
                                                                  noted several potential strategic
                                                                  and operational risk factors,
                                                                  including management’s use of
                                                                  operational capability rather than
                                                                  actual service performance in
                                                                  establishing the modern service
                                                                  standards. Management agreed
                                                                  that it complied with the statutory
                                                                  requirements for developing
                                                                  modern service standards.




                                                 7
Service Performance Measurement Systems – Delivery Confirmation                                   CRR-AR-09-005



                                 APPENDIX B: DETAILED ANALYSIS

Service Performance Measurements were Reliable for Parcels

The Delivery Confirmation data used to calculate the service performance measurement
for retail First-Class Mail and Package Services parcels was reliable. However, retail
parcels comprise approximately 0.4 percent of First-Class Mail volume and 14.5 percent
of Package Services annual mail volume; therefore, the results of this audit may not
reflect the accuracy of the service performance of the broader mail classes. We tested
the migration of Delivery Confirmation data from original entry sources to reporting
sources and determined the systems were reliable. This included data collection at
Point-of-Sale (POS) systems, which transfers to the PTS and EDW. Our tests also
concluded that the Postal Service followed their established business rules for excluded
data.

The Postal Service improved their on-time delivery of retail First-Class Mail parcels and
Package Services parcels during the second quarter, FY 2009; however, the on-time
delivery performance for these products is still short of performance targets. For the
second quarter, FY 2009, the service performance measurement results for retail First-
Class Mail parcels was 88.5 percent for overnight delivery, 80.4 percent for 2-day
delivery, and 84.0 percent for 3-5 day delivery.4 Those results are 8 to 14 percent
below service performance goals. The service performance results for Package
Services parcels were 69.3 percent, about 21 percent below the service performance
goal. Table 1 shows the first and second quarter, FY 2009 service performance results
and goals for retail First-Class Mail and Package Services parcels.

                               Table 1. Service Performance Results


                                                         Percent On-Time                       Service
                                                      1 Quarter 2nd Quarter
                                                        st
                                                                                             Performance
      Mail Class                                       FY 2009     FY 2009                      Target
      Retail First-Class Mail Parcels
       Overnight                                             86.3             88.5                 96.5
       2-Day                                                 77.0             80.4                 94.0
       3-5 Day                                               77.8             84.0                 92.7
      Retail Package Services Parcels                        64.7             69.3                 90.0

Excluded Data

In the first quarter, FY 2009 there were over 7.9 million retail First-Class Mail and
Package Services parcels with Delivery Confirmation service. Based on the business

4
 The service performance results for retail First-Class Mail parcels are combined with the single-piece First-Class
Mail letters and flats service performance results which are measured by the EXFC measurement system.



                                                             8
Service Performance Measurement Systems – Delivery Confirmation                                     CRR-AR-09-005



rules for exclusion, 875,857 retail First-Class Mail and Package Services parcels
(approximately 11 percent) were omitted from the service performance measurement
calculations. Table 2 shows the total and excluded retail First-Class Mail and Package
Services parcels in the first quarter of FY 2009.

                                         Table 2. Excluded Parcels

                      Mail Categories                                                 Quantity
                      Total Retail First-Class Mail Parcels                          4,288,014
                      Total Retail Package Services Parcels                          3,661,258
                      Total Parcels                                                  7,949,272
                      Excluded Retail First-Class Mail Parcels                         409,079
                      Excluded Retail Package Services Parcels                         466,778
                      Excluded Retail Parcels                                          875,857
                      Percent Excluded                                                    11.0

The Postal Service established seven business rules to identify parcels that should be
excluded from service performance measurement calculations. For example,
mailpieces are not included in the service performance calculations when the Delivery
Confirmation start-the-clock and stop-the-clock events are incomplete. The following
three business rules accounted for 94 percent of the excluded data:

    1. Mailpieces that originate or destinate in a unique 5-digit ZIP Code. The Postal
       Service assigns unique ZIP Codes exclusively to a firm or government agency.

    2. Mailpieces that receive the earliest stop-the-clock scan in a 5-digit ZIP Code that
       is different from the destination ZIP Code of the start-the-clock scan. In other
       words, the intended and actual destination ZIP Codes are mismatched.

    3. Mailpieces that originate or destinate in a 100 percent business 5-digit ZIP Code.

The remaining four business rules for exclusion are:

    4. Mailpieces that:
       • have scan events out of chronological order;
       • are accepted on a Sunday or a holiday; or
       • are accepted after a critical entry time,5 on either a Saturday or a day before a
          holiday.

    5. Mailpieces that originate or destinate in military Army Post Office/Fleet Post
       Office ZIP Codes.6

5
 The critical entry time is the latest time mail can be received at designated induction point for it to be processed and
dispatched in time to meet service standards.



                                                            9
Service Performance Measurement Systems – Delivery Confirmation                                    CRR-AR-09-005




    6. Mailpieces that originate or destinate in an inactive 5-digit ZIP Code™.

    7. Mailpieces that destinate in government mail ZIP Codes.

A retail First-Class Mail or Package Services parcel may be excluded from service
performance measurement based on any of the above criteria. A parcel also may have
multiple reasons for exclusion. Chart 1 shows a break-out of the reasons retail
First-Class Mail and Package Services parcels were excluded from service performance
measurement.

      Chart 1. Reasons for Exclusion from Service Performance Measurement

                         42,726      4,897     3,976      2,729 

                      96,490 

                                                                                                Unique
                                                                                                Mismatch
                                                                        404,730                 Business
                                                                                                Other
                                                                                                Military
                                                                                                Inactive ZIP Code
                                                                                                Government
                 383,880 




         ** The total excluded criteria count is 939,428. The total excluded parcels count is 875,857. The
            difference between the criteria and parcels count is due to some parcels being excluded for
            multiple reasons.

Reliability of Data

The timing of stop-the-clock Delivery Confirmation scans and manually entered Delivery
Confirmation scans did not affect the reliability of service performance measurements.

The majority of stop-the-clock scan times occurred during standard delivery hours. In
our opinion, this indicates that stop-the-clock scans were not being conducted before
delivery to improve service performance results. For the first quarter, FY 2009, 86
percent of the stop-the-clock scans for retail First-Class Mail and Package Services

6
 Mail addressed to or mailed from a military unit located outside the continental U.S. or between two military units
overseas.



                                                          10
Service Pe
         erformance Measurement Systems
                                S       – Delivery Confirmation                                   CRR-AR-09-0
                                                                                                            005



parcels occurred beetween 9 a.m.
                            a    and 4 p.m.
                                        p     and weere normallly distribute
                                                                           ed over
standard
       d delivery periods.
                  p        Ch
                            hart 2 depiccts the stop-the-clock scan
                                                               s     times distributed
over a 24-hour
       2       period.

                               Chart 2. Stop-th
                                              he-Clock Delivery
                                                       D        Tim
                                                                  me


          1,200,000 

          1,000,000 

            800,000 

            600,000 
                                                                                           Deliverries by Hour
            400,000 

            200,000 

                   ‐




Addition
       nally, manua  ally entered
                                d stop-the-cclock events did not immpact the ca alculation of
                                                                                           o
service performanc
        p           ce measure  ement resullts. In the first
                                                       f     quarter, FY 2009, less than one
                                                                                           o
percent of the stop-the-clock times
                                 t     were manually entered.
                                                       e          Fo
                                                                   or that quarrter, there were
                                                                                           w
7,953,86607 retail Fiirst-Class Mail
                                M and Pa   ackage Servvices parce  els with Deliivery
Confirmation servic ce. Of thosse parcels, 29,115
                                            2       hadd manually entered sto  op-the-clockk
events. The servic  ce performa ance resultss for manuaally enteredd stop-the-cclock eventss
were low
       wer than se ervice performance ressults based on scanne     ed Delivery Confirmatio on
stop-the
       e-clock even nts. We ca  alculated se
                                           ervice performance forr scanned entries
                                                                               e       as 622.43
percent and for ma anual entries as 60.15 percent.

Represe
      entativene
               ess of Deliv
                          very Confirrmation

The retaail First-Clas
                     ss Mail andd Package Services
                                              S          paarcels included in the first
                                                                                   f    quarterr, FY
2009 service performance me     easurementts were representative      e of over 999 percent off
active 3--digit ZIP Codes.
                    C         For the first quarter, FY 2009, there were appro    oximately 4.3
million First-Class
        F            Mail
                     M parcelss and appro     oximately 3.7
                                                          3 million Package
                                                                      P          Se
                                                                                  ervices parccels
that tota
        aled the 7.9 million parrcels included in the se   ervice perfo
                                                                      ormance me   easuremen  nts.
The desstination 3-d digit ZIP Co
                                odes for the e retail Firstt-Class parccels include
                                                                                  ed all 930
active 3--digit ZIP Codes.
                    C         The
                                e destination n ZIP Code  es for the re
                                                                      etail Packagge Servicess

7
 This number varies from  m the 7,949,272  2 pieces reportted on page 8 by
                                                                        b 4,588 pieces. This represents a timing
difference in the collection of data. We requested the data to compa   are manually en
                                                                                     ntered and scanned entries se
                                                                                                                 everal
weeks afteer obtaining thee original data.



                                                          11
Service Performance Measurement Systems – Delivery Confirmation             CRR-AR-09-005



parcels included 926 of the 930 active 3-digit ZIP Codes. The highest volume
destination ZIP Code represented less than 1 percent of the total delivery volume. The
top ten districts per number of deliveries were populated areas with high mail volume.
Table 3 lists the retail First-Class Mail and Package Services parcel deliveries to the top
ten destination ZIP Codes.

                          Table 3. Top Ten Zip Code Destinations

                3-Digit                                             Percent of
               ZIP Code      Destination                    Total     Total
                  917        Santa Ana, CA                 71,529      0.90
                  100        New York PC                   69,034      0.87
                  194        Philadelphia, PA Metro        68,637      0.86
                  600        Northern IL                   61,353      0.77
                  900        Los Angeles, CA               61,327      0.77
                  750        Dallas, TX                    60,810      0.76
                  945        Bay-Valley, CA                60,302      0.76
                  334        Central FL                    56,336      0.71
                  926        Santa Ana, CA                 56,142      0.71
                  601        Northern IL                   54,910      0.69




                                                 12
